AUDIT 0F THE OFFICE OF JUSTICE PROGRAMS
    NATIONAL INSTITUTE OF JUSTICE
  COOPERATIVE AGREEMENT AWARDED TO
      OCCUPATIONAL RESEARCH AND
       ASSESSMENT, INCORPORATED
          BIG RAPIDS, MICHIGAN




        U.S. Department of Justice
      Office of the Inspector General
               Audit Division


       Audit Report GR-50-11-004
               July 2011
         AUDIT OF THE OFFICE OF JUSTICE PROGRAMS
              NATIONAL INSTITUTE OF JUSTICE
           COOPERATIVE AGREEMENT AWARDED TO
   OCCUPATIONAL RESEARCH AND ASSESSMENT, INCORPORATED
                   BIG RAPIDS, MICHIGAN

                               EXECUTIVE SUMMARY

      The Office of the Inspector General, Audit Division, has completed an
audit of an Office of Justice Programs (OJP), National Institute of Justice
(NIJ), cooperative agreement awarded to Occupational Research and
Assessment, Incorporated (ORA). 1 ORA is located in Big Rapids, Michigan,
about 60 miles north of Grand Rapids, Michigan. ORA is an S-corporation
whose Chief Executive Officer is the sole member of its board of directors
and the grant Project Director. ORA was awarded $898,349 under grant
number 2009-DN-BX-K207 for a forensic science training development and
delivery program. The purpose of the program is to: (1) develop curriculum
and training for the National Missing and Unidentified Persons System
(NamUs); (2) plan, execute, and follow-up on national NamUs training
academies; and (3) evaluate the national training program’s effectiveness. 2

      The objective of our audit was to review performance in the following
areas: (1) internal control environment; (2) drawdowns; (3) grant
expenditures, including personnel costs; (4) budget management and control;
(5) matching costs; (6) accountable property; (7) indirect costs; (8) program
income; (9) financial status and progress reports; (10) grant requirements;
(11) program performance and accomplishments; and (12) monitoring of sub-
grantees and contractors. We determined that local match, property
management, indirect costs, program income, and oversight of sub-grantees
were not applicable to this grant.

      As of September 30, 2010, the grantee had drawn down $220,552 in
grant funds and had recorded total expenditures of $82,242 in the grant
accounting records. We examined ORA’s accounting records, required
reports, and operating policies and procedures. In total we identified



       1
          We use the term “cooperative agreement” interchangeably with “grant” throughout
this report.
       2
          National Missing and Unidentified Persons System (NamUs) is a web-based, publicly
accessible system to assist in the investigation of both unidentified deceased persons and
assumed alive missing persons. The system could facilitate the location of missing persons
who have died and the identification of deceased persons whose names and identities are
unknown.
$138,310 in questioned costs and identified internal control, accounting, and
reporting deficiencies. Specifically, we found:

     •     The grantee’s grant accounting records were incomplete because
           grantee personnel costs, as well as expenditures for supplies and
           other expenses, were not recorded in the official grant ledgers.

     •     The grantee’s drawdowns of $220,552 exceeded the amount of
           expenditures that the grantee had recorded in its official
           accounting ledgers, which amounted to $82,242. This occurred
           because the grantee’s reimbursement requests and financial
           activity reports were based in part on pro-rated amounts of the
           total funds awarded for personnel, supplies, and other expenses.
           As these estimated amounts did not reconcile with the grantee’s
           accounting ledgers, we are questioning $138,310 in unsupported
           costs reimbursed by the grant.

     •     The OJP Financial Guide requires grantees to maintain
           documentation supporting employee activities. Specifically, for
           employees whose time is attributable to multiple activities or cost
           objectives, the grantee must maintain a distribution of their
           salaries or wages and this distribution should be supported by
           time and effort reports or equivalent documentation. Although
           the grantee’s timesheets tracked both hours and the projects
           worked on, the Grant Accountant stated that ORA employees
           frequently did not attribute any or all of the time spent on the
           grant on their timesheets. Consequently, the calculation of
           employee time spent on the grant using the timesheets would not
           be accurate or substantiate grant employee personnel costs that
           should be billed to the grant.

     •     Although the financial activity reports were generally filed on a
           timely basis, progress reports for the periods ended
           December 31, 2009, and June 30, 2010, were filed 16 and
           5 days late, respectively.

      Our report contains six recommendations to address the preceding
issues, which are discussed in detail in the Findings and Recommendations
section of the report. Our audit objective, scope, and methodology are
discussed in Appendix I of the report.




                                    - ii -
                                  TABLE OF CONTENTS


INTRODUCTION........................................................................... 1
     Background .......................................................................... 1
     Our Audit Approach ............................................................... 2
FINDINGS AND RECOMMENDATIONS ............................................. 4
     Accounting and Internal Controls ............................................ 4
     Grant Drawdowns ................................................................. 6
     Grant Expenditures ............................................................... 7
     Budget Management and Control ............................................ 9
     Grant Reporting .................................................................... 9
     Compliance with Grant Requirements .....................................11
     Program Performance and Accomplishments ...........................11
     Monitoring Contractors and Sub-grantees ...............................12
     Views of Responsible Officials ................................................12
     Recommendations ...............................................................12

APPENDICES

  I. OBJECTIVES, SCOPE, AND METHODOLOGY .............................14
 II. SCHEDULE OF DOLLAR-RELATED FINDINGS ...........................16
III. AUDITEE RESPONSE ............................................................17
IV. U.S. DEPARTMENT OF JUSTICE RESPONSE .............................19
 V. OFFICE OF THE INSPECTOR GENERAL ANALYSIS
     AND SUMMARY OF ACTIONS NECESSARY
     TO CLOSE REPORT ............................................................. 22
                                     INTRODUCTION

      The Department of Justice (DOJ) Office of the Inspector General (OIG),
Audit Division, has completed an audit of an Office of Justice Programs
(OJP), National Institute of Justice (NIJ), cooperative agreement awarded to
Occupational Research and Assessment, Incorporated (ORA). ORA was
awarded $898,349 under grant number 2009-DN-BX-K207 for a forensic
science training development and delivery program.

      The purpose of the program is to: (1) develop curriculum and training
for the National Missing and Unidentified Persons System (NamUs); (2) plan,
execute, and follow-up on national NamUs training academies; and
(3) evaluate the national training program’s effectiveness. 3

     As shown in the table below, ORA was awarded a total of $898,349 to
implement the grant program.

         TABLE 1. OFFICE OF JUSTICE PROGRAMS GRANT TO
    OCCUPATIONAL RESEARCH AND ASSESSMENT, INCORPORATED
                     AWARD START     AWARD
     GRANT AWARD                              AWARD AMOUNT
                         DATE       END DATE

   2009-DN-BX-K207            10/01/09         12/31/11            $898,349
                                                     Total:        $898,349
Source: Office of Justice Programs

Background

       Since 1984, OJP has provided federal leadership in developing the
nation's capacity to prevent and control crime, improve the criminal and
juvenile justice systems, increase knowledge about crime and related issues,
and assist crime victims. NIJ was created in 1969 and is the research,
development, and evaluation agency of DOJ. NIJ is organized to:
(1) emphasize outcomes and cost-benefit evaluations of criminal justice
programs and technologies; (2) keep the social and physical sciences
together under one research agency to maximize collaborations, cost-
effectiveness, and benefits to the field; (3) evaluate the forensic sciences;


       3
          National Missing and Unidentified Persons System (NamUs) is a web-based, publicly
accessible system to assist in the investigation of both unidentified deceased persons and
assumed alive missing persons. The system could facilitate the location of missing persons
who have died and the identification of deceased persons whose names and identities are
unknown.
and (4) group the core organizational functions under autonomous offices
that report directly to a Deputy Director.

       ORA is located in Big Rapids, Michigan, about 60 miles north of Grand
Rapids, Michigan. ORA is an S-corporation whose Chief Executive Officer is
the sole member of its board of directors and the grant Project Director.
ORA employs six staff members (two research assistants and four project
assistants) who develop specialized software programs for the corporation’s
clients.

        There are many electronic data systems collecting information about
missing and unidentified deceased persons, such as the National Crime
Information Center, that are not readily accessible to, or searchable by
persons such as medical examiners, coroners, and other members of the
public who need the information. NamUs is a web-based, publicly accessible
system that was established to provide a “one-stop” data system for all
participants in investigations of missing and unidentified deceased persons.
The grant given to ORA was to identify and provide NamUs training to
selected medical examiner and coroner offices, post-secondary institutions,
and local and state law enforcement agencies and to offer five national train-
the-trainer academies. The train-the-trainer academies were to be
presented in five different regions of the United States. By creating regional
stakeholders with mentoring responsibilities, the grant hopes to promote and
facilitate consistent data collection and sharing protocols along with an
understanding of the potential benefits associated with solving missing and
unidentified persons cases nationally.

Our Audit Approach

      We tested compliance with what we consider to be the most important
conditions of the grant. Unless otherwise stated in our report, the criteria
we audit against are contained in the OJP Financial Guide, the Code of
Federal Regulations, Office of Management and Budget (OMB) Circulars, and
the award documents. We tested ORA’s:

      •   Accounting and Internal Controls to determine whether the
          grantee had sufficient accounting and internal controls in place for
          the processing and payment of funds and controls were adequate to
          safeguard grant funds and ensure compliance with the terms and
          conditions of the grant;

      •   Grant Drawdowns to determine whether grant drawdowns were
          adequately supported in accordance with federal requirements;



                                     -2-
     •   Grant Expenditures to determine the accuracy and allowability of
         costs charged to the grant;

     •   Budget Management and Control to examine the amounts
         budgeted and the actual costs for each approved cost category and
         determine if the grantee deviated from the approved budget, and if
         so, if the grantee received the necessary approval;

     •   Financial Status Reports and Progress Reports to determine
         whether the required reports were submitted on time and
         accurately reflected grant activity; and

     •   Accomplishment of Grant Requirements and Objectives to
         determine if the grantee met or is capable of meeting the grant’s
         objectives and whether the grantee collected data and developed
         performance measures to assess accomplishment of the intended
         objectives.

      We also performed limited work and confirmed that ORA did not
receive reimbursement for indirect costs, did not generate or receive
program income, was not required to contribute any local matching funds,
and did not sub-award DOJ grant funds to sub-grantees. We therefore
performed no testing in these areas.




                                    -3-
                  FINDINGS AND RECOMMENDATIONS

      We determined that ORA was accomplishing or making adequate
      progress in fulfilling the objectives of the grant. However, our
      audit revealed internal control weaknesses as well as accounting
      and reporting deficiencies. Specifically, we found insufficient
      documentation to support grant payroll activity and identified
      that two required progress reports were filed late. The grantee
      also pro-rated the amounts budgeted for several cost categories
      and reported the pro-rated amounts as actual expenditures in its
      reimbursement requests and financial status reports. As a
      result, we questioned $138,310 in unsupported expenditures.

       We performed audit work at the ORA office in Big Rapids, Michigan,
where we obtained an understanding of the accounting system and reviewed
a sample of grant expenditures. We reviewed the criteria governing grant
activities, including the OJP Financial Guide and relevant OMB Circulars and
the Code of Federal Regulations. In addition, we reviewed grant documents,
including the application, award, budgets, and financial and progress
reports. We also interviewed key personnel at ORA’s office.

Accounting and Internal Controls

      According to the OJP Financial Guide, grant recipients are required to
establish and maintain accounting and internal control systems to account
accurately for funds awarded to them. Further, the accounting system
should ensure, among other things, the identification and accounting for
receipt and disposition of all funds, funds applied to each budget category
included in the approved award, expenditures governed by any special and
general provisions, and non-federal matching contributions.

       We reviewed ORA’s financial management system and its policies and
procedures to assess ORA’s risk of non-compliance with laws, regulations,
guidelines, and terms and conditions of the grant. To further assess risk, we
obtained an understanding of the reporting process, examined grant records
and reports prepared by ORA, and interviewed ORA personnel regarding
award charges. We did not test the entirety of the internal control system or
the financial management system for ORA as a whole. Our testing revealed
internal control, accounting, and reporting deficiencies that are explained in
more detail in the following sections.




                                    -4-
Financial Management System

       The OJP Financial Guide requires grantees to establish and maintain a
system of accounting and internal controls that adequately identifies and
classifies grant costs. The system must include controls to ensure that funds
and other resources are used optimally and expenditures of funds are in
conformance with the general and special conditions applicable to the
recipient. Further, the OJP Financial Guide states that grantees should
establish and maintain program accounts that will enable, on an individual
basis, the separate identification and accounting of the receipt and
disposition of all funds and the application of all funds to each budget
category included within the approved award.

      We did not test the overall financial management system for ORA as a
whole, but conducted a limited review and performed testing in areas related
to the NIJ award. We also interviewed staff and management as well as
observed accounting activities and processes to further assess risk. The
grantee operates under procedures that it promulgates in a policy and
procedures manual that covers ethics and basic business procedures. Each
new employee receives a copy of the manual.

      Our review of ORA’s financial management system indicated that the
internal controls over the accounting system were weak due to a lack of
separation of duties. Specifically, the Grant Accountant posted and
maintained the financial and budget records, compiled payroll information,
processed all of the grant’s expenditures, prepared checks for the manager’s
signature, had access to an electronic signature stamp, and prepared the
required reports that were submitted to OJP and NIJ. The grant Project
Director acknowledged that he was aware of the risks faced by a small
organization and routinely reviewed the work product of the Grant
Accountant, and he was very involved with ORA’s day-to-day operations. In
addition to using an outside payroll firm, the Project Director also had an
outside accounting firm receive the checking account statement directly from
the bank and had the firm perform the monthly bank account reconciliations.

      In addition to the lack of separation of duties discussed above, we
noted several other internal control weaknesses, which are discussed in the
Grant Drawdowns, Grant Expenditures, and Grant Reporting sections of this
report. The weaknesses include excess drawdowns as a result of not
recording all expenditures in the grant accounting records, basing drawdown
requests on pro-rated award amounts, and filing reports in an untimely
manner.




                                    -5-
Audit

      According to Office of Management and Budget (OMB) Circular A-133,
non-federal entities that expend $500,000 or more in federal awards during
the year shall have a single audit conducted. ORA did not expend $500,000
or more in federal awards during 2009 and, as a result, was not required
and did not have a financial and compliance audit performed.

Grant Drawdowns

      We reviewed ORA’s process for requesting reimbursement for its
grant-related costs to ensure that the reimbursement requests were
adequately supported by official accounting records and were in accordance
with federal requirements. We noted that as of September 16, 2010, ORA
had $82,242 recorded in its grant accounting records but had drawn down
$220,552, as shown in the following table.

      TABLE 2. COMPARISON OF DRAWDOWNS TO ACCOUNTING RECORDS
                                GRANT                   CUMULATIVE
                           EXPENDITURES PER            EXPENDITURES
    DATE OF     AMOUNT       ACCOUNTING     CUMULATIVE     PER
   DRAWDOWN    DRAWN PER     RECORDS FOR    DRAWDOWNS   ACCOUNTING
    PER OJP       OJP     DRAWDOWN PERIOD     PER OJP    RECORDS

        4/19/2010    $83,210                     $0      $83,210               $0

        7/19/2010    120,134                 56,328      203,344           56,328

      9/1/2010           17,208               25,914       220,552          82,242
 Source: Office of Justice Programs and Occupational Research and Assessment, Inc.

       We found that the grantee’s reimbursement requests were based upon
estimated rather than actual amounts and that the accounting records did
not reflect all grant activity. Rather than ensuring reimbursements did not
exceed incurred expenses or disbursements to be made within 10 days as
required by the OJP Financial Guide, for several budget categories
(personnel, supplies, and other), the grantee divided the amount awarded
evenly among the grant quarters and reported the quarterly approximation
as actual expenditures in its reimbursement requests. Consequently, when
we reviewed the accounting records and compared expenditures to the
amounts drawn down, we found that the drawdowns did not match the
recorded expenditures because of the grantee’s methodology for calculating
its reimbursement requests. Our reconciliation attempts were also
hampered by the fact that the grantee’s accounting records did not include
its costs for salary and fringe benefits, as well as expenditures for general
office supplies and various other items. As a result of these accounting
discrepancies, the grant accounting records were materially incomplete.


                                       -6-
This issue is discussed in more detail in the Grant Expenditures section of
this report.

       We believe that ORA should establish procedures to ensure that all
grant-related expenditures are recorded in the grant accounting records and
that its drawdown requests are based only on actual grant expenditures.

Grant Expenditures

        The OJP Financial Guide serves as a primary manual to assist grantees
in fulfilling their fiduciary responsibility to safeguard grant funds and ensure
funds are used for the purposes for which they were awarded. It also serves
as a day-to-day management tool for award recipients in administering
grant programs. The OJP Financial Guide requires that expenditures be
accounted for and adequately supported.

      To determine the accuracy and allowability of costs charged to the
grant, we reviewed a sample of direct expenditures totaling $44,540. ORA’s
approved grant budget included the following:
                           TABLE 3.
      OCCUPATIONAL RESEARCH AND ASSESSMENT, INCORPORATED
    APPROVED GRANT BUDGET AMOUNTS AND DESCRIPTION OF COSTS
                           APPROVED
                            REVISED
    COST CATEGORY           BUDGET            DESCRIPTION OF PLANNED EXPENDITURES

Personnel                    $340,000     ORA staff involved in NamUs Project

Fringe Benefits                54,510     ORA staff involved in NamUs Project
                                          ORA staff members attending training
Travel                         16,650     academies

Supplies                       20,950     General office and training academy supplies
                                          Training academy costs, including travel, for
Contract/Consultant           456,300     faculty and trainees.

Other                            9,939    ORA telephone, postage, fax, and website costs

Equipment                             0   None planned

Construction                          0   None planned

Indirect Costs                        0   None planned
FEDERAL FUNDS               $898,349

LOCAL MATCH                        $0
TOTAL PROJECT COST          $898,349
  Source: Office of Justice Programs and Occupational Research and Assessment, Inc.




                                          -7-
       We reviewed the general ledger account designated for grant activity
and verified 25 transactions. Our sample of expenditures totaled $44,540,
or 54 percent of the $82,242 in recorded grant expenditures through
September 30, 2010. Expenditures recorded in the ledger related directly to
the first NamUs Training Academy seminar that had been held in St. Louis,
Missouri. We found that generally the transactions we reviewed were
properly authorized, classified, supported, and charged to the grant.

       As previously mentioned, reimbursement requests for payroll
expenses and fringe benefits, as well as supplies and other costs, were
based on pro-rated amounts. Expenditures for these budget categories were
not recorded in the grant accounting ledger. We determined that the Grant
Accountant was maintaining unofficial grant spreadsheets that included
actual training academy costs along with the pro-rated, estimated amounts
that were used to calculate reimbursement requests. We determined that
the grantee also used the spreadsheet information to prepare the Financial
Status Reports (FSR) and the FSR-reported expenditures totaled $262,852,
while drawdowns during the period totaled $220,552. 4 However, the official
grant accounting records identified only $82,242 in expenditures. Therefore,
we question the difference between the amount received ($220,552) and the
amount supported by the accounting records ($82,242), which equals
$138,310 in unsupported costs. Subsequent to our review, the Grant
Accountant stated that she had been in contact with OJP and she will work
with OJP on this issue.

        In addition, we found that the grantee did not have adequate
documentation to support employee time charges. According to the OJP
Financial Guide, grantees must maintain documentation supporting
employee activities. Specifically, for employees whose time is attributable to
multiple activities or cost objectives, the grantee must maintain a
distribution of their salaries or wages, and this distribution should be
supported by time and effort reports or equivalent documentation. Although
the grantee’s timesheets tracked both hours and the projects worked on, the
Grant Accountant stated that ORA employees frequently did not correctly
attribute all of the time spent working on the NamUs Training Academies on
their timesheets. Consequently, the calculation of employee time spent on
the grant using the timesheets would not be accurate and would not
substantiate grant employee personnel costs that should be billed to the
grant. Because we were told the reimbursed pro-rated personnel costs
lacked adequate and specific support, we did not conduct further testing in

       4
          The grantee filed Financial Status Reports to report its grant expenditures. These
reports have now been replaced by Federal Financial Reports and were required by special
condition 9 in the grant award document.



                                            -8-
this area. Subsequent to our review, the Grant Accountant stated that the
importance of accurate time reporting was discussed with staff and that she
is closely monitoring the accuracy of currently submitted timesheets.

Budget Management and Control

      According to the OJP Financial Guide, a grantee may transfer funds
between approved budget categories without OJP approval if the total
transfers are 10 percent or less than the award amount. Requests for
transfers of funds between budget categories of over 10 percent must be
submitted to OJP for approval. Because the grant had not yet expired, we
could not fully conduct testing in this area. However, we did determine if
the budgets were being adhered to, and we compared the amounts charged
to each grant category to the OJP-approved budget. The Grant Accountant
monitored the grant budget to ensure that overall spending was appropriate
and that spending by budget category was proper. As previously stated, the
Grant Accountant did this by maintaining a spreadsheet of the pro-rated and
actual expenditure amounts charged to the grant. When we compared the
OJP-approved grant budget against actual expenditures and pro-rated
allocations, we found that expenditures in all categories were under the
budgeted amounts.

Grant Reporting

      The OJP Financial Guide states that two types of reports are to be
submitted by the grantee. Financial Status Reports (FSR) provide
information on monies spent and the unobligated amounts remaining in the
grant. Program progress reports provide information on the status of grant-
funded activities and other pertinent information.

Financial Status Reports

       The OJP Financial Guide states that FSRs filed after October 1, 2009,
are due within 30 days after the end of the calendar quarter. We reviewed
all four quarters for which a report was required and determined that all four
required reports were generally submitted within the required timeframe.

      We reviewed all of the submitted FSRs through September 30, 2010, for
accuracy and found that FSRs and grant accounting ledgers did not agree due
to the reporting of pro-rated grant costs for several budget categories. Our
results for all reports reviewed are displayed in the following table.




                                    -9-
                  TABLE 4. COMPARISON OF AMOUNTS
              DRAWN DOWN TO FINANCIAL STATUS REPORTS
                                                                 CUMULATIVE
             QUARTERLY                                          EXPENDITURES
              REPORT       CUMULATIVE          CUMULATIVE           PER
             PERIOD END   EXPENDITURES       DRAWDOWNS PER      ACCOUNTING
               DATE         PER FSR               OJP             LEDGERS

             12/31/09           $44,655                   $0                $0

             03/31/10            83,210                    0                 0

             06/30/10           124,121                83,210         56,328

             09/30/10         $262,852               $220,552        $82,242
          Source: Office of Justice Programs and ORA

Progress Reports

      According to the OJP Financial Guide and award documents, progress
reports are due semiannually on January 30 and July 30 for the life of the
grant. Although the report due dates were also specifically identified in the
grant award’s special conditions, the Grant Accountant stated that she
waited for notification from OJP that a progress report was due before
submitting one. Because notification was not made until the report was
overdue, the grantee submitted 2 reports between 5 and 16 days late, as
seen in the following table.

             TABLE 5. TIMELINESS OF PROGRESS REPORTS
      RPT        REPORT PERIOD                             DATE
      NO .      FROM - TO DATES        DUE DATE         SUBMITTED     DAYS LATE
       1      10/01/09 - 12/31/09          1/30/10       02/15/10           16
       2      01/01/10 - 06/30/10          7/30/10       08/04/10            5
      Source: Office of Justice Programs

      As a result of our review, the Grant Accountant stated she no longer
waits for notification that a report is due but has noted the report due dates
on her calendar to ensure timely submission of all required reports.

     We reviewed the two progress reports submitted as of September 30,
2010, and determined that the data in the two reports was supported by
documentation about the grant-funded activities.




                                           - 10 -
Compliance with Grant Requirements

       We reviewed the special conditions of the grant award and identified
several key requirements, such as the requirement: (1) to submit quarterly
FSRs to OJP within 30 days after the end of each calendar quarter, (2) to
submit semiannual progress reports within 30 days after the end of the
reporting period, (3) to provide itemized cost information in 45 days after
the end of any conference that exceeds $20,000 in award funds, (4) to
include statements about federal funding and disclaimers on any website
that is funded in whole or in part under the award, and (5) to not make a
profit as a result of this award or to charge a management fee for the
performance of this award. We confirmed that the required FSRs, progress
reports, and conference cost report were submitted to OJP and that no
management fees were recorded in the grant accounting ledgers or in the
pro-rated costs billed to the grant. In addition, we observed that there was
one grant-funded website that was partially funded with grant funds, and it
contained the required statements.

Program Performance and Accomplishments

      According to the award documentation, one of the main purposes of
the grant was to conduct train-the-trainer courses for the NamUs system.
The faculty and staff selected for these events were to be trained and
educated not only in the subject-matter they were to teach, but also on the
overall goals of the program. The instructors were then to put on NamUs
Training Academies in the following regions:

      •   Midwestern Academy in St. Louis, Missouri
      •   Southwestern Academy in Albuquerque, New Mexico
      •   Northeastern Academy in Baltimore, Maryland
      •   Southeastern Academy in Atlanta, Georgia
      •   Western Academy in Los Angeles, California

       We observed evidence that the first session did take place in St. Louis,
Missouri, in July 2010. The Grant Project Director told us that the second
training Academy had been held as planned in Albuquerque, New Mexico,
and the third was scheduled for May 23, 2011, in Baltimore, Maryland.
According to the Project Director, once the Training Academies are
completed and the grant expires, the knowledge of the NamUs database
should be widespread on a national level. This will address the NIJ goals of:
(1) widespread adoption and use of the NamUs system through the
education and training of individuals who conduct missing and unidentified
persons investigations; and (2) the uniform collection, reporting, and
sharing of all essential missing and unidentified persons data by educating


                                    - 11 -
and training those principally responsible for gathering the data used by
NamUs.

       We made observations, reviewed documentation, and interviewed ORA
staff to determine whether the grant objectives that were identified in the
grant applications were being met. Overall, we found that ORA was
accomplishing or making progress in fulfilling the goals and objectives of the
grant. We also confirmed that the first Academy was held.

Monitoring Contractors and Sub-grantees

      There were no sub-grantee awards, and the contracts associated with
the transactions tested did not require ongoing ORA oversight. We found
that ORA had entered into contracts with hotels and single service
contractors to teach the 1-week academy classes. Because we tested
54 percent of ORA’s training academy costs and did not identify any material
issues, we determined that it was not necessary to perform additional
testing of ORA’s management of contractors. In addition, for the
transactions tested we found that the daily consultant fee paid was within
federal guideline limits and specifically approved by OJP.

Views of Responsible Officials

       We discussed the results of our review with grantee officials
throughout the audit and at a formal exit conference, and we have included
their comments as appropriate. The Grant Accountant stated that due to her
lack of training and limited knowledge about grants and record keeping
procedures, she relied on staff at OJP to identify problems and planned to
contact OJP for training assistance.

Recommendations

We recommend that the Office of Justice Programs:

   1. Require the grantee to ensure that drawdowns are based on actual
      expenditures as recorded in the grant accounting records, and to not
      include pro-rated budget amounts.

   2. Ensure that the grantee implements appropriate accounting
      procedures that adhere to federal grant accounting requirements and
      records all grant-related financial activity in the official accounting
      records.




                                    - 12 -
3. Require that the grantee submit corrected Financial Status Reports
   based upon actual recorded and supported expenditures.

4. Remedy the $138,310 in unsupported questioned costs charged to the
   grant for salary and fringe benefits, supplies, and other costs that
   were based on pro-rated budget amounts.

5. Require the grantee to ensure that employees track all time on their
   timesheets, including by project and the hours worked.

6. Ensure that the grantee submits progress reports in a timely manner.




                                - 13 -
                                                               APPENDIX I

           OBJECTIVES, SCOPE, AND METHODOLOGY

      The purpose of this audit was to determine whether reimbursements
claimed for costs under the grant were allowable, supported, and in
accordance with applicable laws, regulations, guidelines, and terms and
conditions of the grant, and to determine program performance and
accomplishments.

      We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence
to provide a reasonable basis for our findings and conclusions based on
our audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit
objectives.

       Our audit concentrated on, but was not limited to, the inception of
the grant on October 1, 2009, through September 30, 2010. This was an
audit of NIJ grant number 2009-DN-BX-K207, for which ORA was awarded
a total of $898,349. In conducting our audit, we reviewed FSRs and
progress reports, as well as performed sample testing of grant
expenditures. In total, the grantee had drawn down $220,552, and
recorded grant expenditures of $82,242 as of September 30, 2010. Our
testing was conducted by judgmentally selecting a sample of
expenditures, along with a review of internal controls and procedures for
the grant that we audited. Judgmental sampling design was applied to
obtain broad exposure to numerous facets of the grant reviewed, such as
dollar amounts, expenditure category, or risk. This non-statistical sample
design does not allow for projection of the test results to all grant
expenditures or internal controls and procedures. We identified a sample
of 25 transactions; 10 were the highest dollar amount and the remaining
15 were randomly selected. These transactions totaled $44,540, or
54 percent of the total recorded grant expenditures.

       We tested compliance with what we consider to be the most important
conditions of the grant. Unless otherwise stated in our report, the criteria
we audit against are contained in the OJP Financial Guide and the award
documents. We reviewed ORA’s grant activities and performance in the
following areas: (1) internal control environment; (2) drawdowns; (3) grant
expenditures, including personnel; (4) budget management and control;
(5) financial status and progress reports; (6) grant requirements;



                                   - 14 -
(7) program performance and accomplishments; and (8) monitoring of
contractors. In addition, we reviewed the timeliness and accuracy of FSRs
and progress reports, and evaluated performance to grant objectives. We
determined that matching, property management, program income, indirect
costs, and oversight of sub-grantees were not applicable to this grant.

      A financial and compliance audit was not performed because ORA had
not expended $500,000 in federal funds in a year. Additionally, no other
independent annual financial report was performed on ORA. We performed
limited testing of source documents to assess the timeliness and accuracy of
FSRs, reimbursement requests, expenditures, and progress reports;
evaluated performance to grant objectives; and reviewed the grant-related
internal controls over the financial management system. We tested invoices
as of September 30, 2010. However, we did not test the reliability of the
financial management system as a whole and reliance on computer-based
data was not significant to our objectives.




                                   - 15 -
                                                                APPENDIX II

        SCHEDULE OF DOLLAR-RELATED FINDINGS


QUESTIONED COSTS                                          AMOUNT         PAGE


Unsupported Costs Based on Award Pro-ration                $138,310         8



TOTAL QUESTIONED COSTS                                   $138,310


TOTAL DOLLAR-RELATED FINDINGS                            $138,310




    Questioned costs are monies spent that, at the time of the audit, do not
    comply with legal requirements, or are unsupported, or are unnecessary or
    unreasonable. They can be recoverable or non-recoverable.




                                   - 16 -
                                                                                              APPENDIX III
                                  AUDITEE RESPONSE

June 29, 2011

Carol S. Taraszka
Regional Audit Manager
U.S Department of Justice
Office of the Inspector General
Chicago Regional Audit Office
500 West Madison Street, Suite 1121
Chicago, IL 60661-2590

RE: Response to Draft Audit Report 6/9/2011 of Cooperative Agreement 2009-DN-
BX-K207

Dear Carol Taraszka:

Thank you for the opportunity to respond to the six recommendations offered by the
auditing team from the Office of the Inspector General (OIG).

Sincerely,

/s/

Steven C. Clark, PhD, Director
Occupational Research and Assessment


cc:    Linda J. Taylor
       Lead Auditor, Audit Coordination Branch
       Office of Justice Programs




                        124 Elm Street· Big Rapids, MI 49307·616.796.2822· FAX 616.796.0014




                                                    - 17 -
Recommendations and Responses

Recommendation 1: Require the grantee to ensure that drawdowns are based on actual
expenditures as recorded in the grant accounting records, and to not include pro-rated
budget amounts.

Response 1: I concur with the auditors recommendations. We will work with our
Program Manager to ensure drawdowns are based on actual expenditures.

Recommendation 2: Ensure that the grantee implements appropriate accounting
procedures that adhere to federal grant accounting requirements and records all grant-
related financial activity in the official accounting records.

Response 2: I concur with the auditors recommendations. We will work with our
Program Manager and the Office of Audit, Assessment, and Management to ensure our
bookkeeping personnel are aware of specific grant accounting methodology required by
the U.S. Department of Justice.

Recommendation 3: Require that the grantee submit corrected Financial Status Reports
based upon actual recorded and supported expenditures.

Response 3: I concur with the auditors recommendations. We will submit a revised
Financial Status Report based on Recommendation 1.

Recommendation 4: Remedy the $138,310 in unsupported questioned costs charged to
the grant for salary and fringe benefits, supplies, and other costs that were based on pro-
rated budget amounts.

Response 4: I concur with the auditors recommendations, as an accounting method.
However, the characterization of charging salary and grant expenses based on percentage
of annual time (pro-rated) vs. exact hourly time (actual) as "unsupported," is
grammatical. We will work with our Program Manager to remedy this issue.

Recommendation 5: Require the grantee to ensure that employees track all time on their
timesheets, including by project and the hours worked.

Response 5: I concur with the auditors recommendations. We will work with our
Program Manager to develop and implement a more valid and reliable "time-card"
system for employees working on grant related activities.

Recommendation 6: Ensure that the grantee submits progress reports in a timely
manner.

Response 6: I concur with the auditors recommendations. We will work with our
Program Manager to ensure that reports are submitted in a timely manner.




                                                - 18 -
                                                                     APPENDIX IV

           U.S. DEPARTMENT OF JUSTICE RESPONSE


                                        U.S. Department of Justice

                                        Office of Justice Programs

                                       Office of Audit, Assessment, and Management



                                       Washington, D.C. 20531




July 8, 2011


MEMORANDUM TO:         Carol S. Taraszka
                       Regional Audit Manager
                       Office of the Inspector General
                       Chicago Regional Audit Office

                         /s/
FROM:                  Maureen A. Henneberg
                       Director

SUBJECT:               Response to the Draft Audit Report, Office of Justice
                       Programs, National Institute of Justice Cooperative
                       Agreement Awarded to Occupational Research and
                       Assessment, Inc., Big Rapids, Michigan

This memorandum is in response to your correspondence, dated June 9,
2011, transmitting the subject draft audit report for the Occupational
Research and Assessment, Inc. (ORA). We consider the subject report
resolved and request written acceptance of this action from your office.

The report contains six recommendations and $138,310 in questioned costs.
The following is the Office of Justice Programs’ (OJP) analysis of the draft
audit report recommendations. For ease of review, the recommendations
are restated in bold and are followed by our response.

1.   We recommend that OJP require the grantee to ensure that
     drawdowns are based on actual expenditures as recorded in


                                   - 19 -
     the grant accounting records, and do not include pro-rated
     budget amounts.

     We agree with the recommendation. We will coordinate with ORA to
     obtain a copy of implemented procedures to ensure that drawdown
     requests are based on actual expenditures, as recorded in the grant
     accounting records, and do not include pro-rated budget amounts, and
     the supporting documentation is maintained for future auditing
     purposes.

2.   We recommend that OJP ensure that the grantee implements
     appropriate accounting procedures that adhere to federal grant
     accounting requirements and records all grant-related financial
     activity in the official accounting records.

     We agree with the recommendation. We will coordinate with the ORA
     to obtain a copy of implemented procedures to ensure that ORA’s
     accounting procedures adhere to Federal grant accounting
     requirements. We will also coordinate with ORA to obtain a copy of
     implemented procedures to ensure that all grant-related financial
     activity is recorded in the ORA’s accounting system.

3.   We recommend that OJP require that the grantee submit
     corrected Federal Financial Reports (FFRs) based upon actual
     recorded and supported expenditures.

     We agree with the recommendation. We will coordinate with ORA to
     obtain a copy of implemented procedures to ensure that Federal
     expenditures reported on future Federal Financial Reports (FFRs) are
     based upon actual recorded and supported expenditures.

4.   We recommend that OJP remedy the $138,310 in unsupported
     questioned costs charged to the grant for salary and fringe
     benefits, supplies, and other costs that were based on pro-
     rated budget amounts.

     We agree with the recommendation. We will coordinate with ORA to
     remedy the $138,310 in unsupported questioned costs charged to
     award number 2009-DN-BX-K207, related to salary and fringe
     benefits, supplies, and other costs that were based on
     pro-rated budgeted amounts.




                                  - 20 -
5.    We recommend that OJP require the grantee to ensure that
      employees track all time on their timesheets, including by
      project and the hours worked.

      We agree with the recommendation. We will coordinate with ORA to
      obtain a copy of implemented procedures to ensure that employees’
      timesheets reflect all time actually worked, both on individual Federal
      grants and other projects.

6.    We recommend that OJP ensure that the grantee submits
      progress reports in a timely manner.

      We agree with the recommendation. We will coordinate with ORA to
      obtain a copy of implemented procedures ensure that future semi-
      annual progress reports are timely submitted to the U.S. Department
      of Justice.

We appreciate the opportunity to review and comment on the draft audit
report. If you have any questions or require additional information, please
contact Jeffery A. Haley, Deputy Director, Audit and Review Division, on
(202) 616-2936.

cc:   Jeffery A. Haley
      Deputy Director, Audit and Review Division
      Office of Audit, Assessment, and Management

      Diane Hughes
      Office Director, Office of Operations
      National Institute of Justice

      Brigid O’Brien
      Program Manager
      National Institute of Justice

      Richard Theis
      Assistant Director
      Audit Liaison Group
      Justice Management Division

      OJP Executive Secretariat
      Control Number 20110975




                                      - 21 -
                                                                  APPENDIX V

              OFFICE OF THE INSPECTOR GENERAL
             ANALYSIS AND SUMMARY OF ACTIONS
               NECESSARY TO CLOSE THE REPORT

      The OIG provided a draft of this audit report to Occupational Research
and Assessment, Incorporated (ORA) and the Office of Justice Programs
(OJP). ORA’s response is incorporated in Appendix III of this final report,
and OJP’s response is incorporated as Appendix IV.

Recommendation Number

1. Resolved. Both ORA and OJP concurred with our recommendation to
   ensure that drawdowns are based on actual expenditures as recorded in
   the grant accounting records, and do not include pro-rated budget
   amounts. OJP stated that it will coordinate with ORA to obtain a copy of
   implemented procedures to ensure that drawdown requests are based on
   actual expenditures, as recorded in the grant accounting records, and do
   not include pro-rated budget amounts, and that supporting
   documentation is maintained for future auditing purposes.

   This recommendation can be closed when we receive a copy of the
   procedures implemented to ensure that drawdown requests are based on
   actual expenditures, as recorded in the grant accounting records, and do
   not include pro-rated budget amounts, and the supporting
   documentation is maintained for future auditing purposes.

2. Resolved. Both ORA and OJP concurred with our recommendation to
   ensure that ORA implements appropriate accounting procedures that
   adhere to federal grant accounting requirements and records all grant-
   related financial activity in the official accounting records. OJP stated that
   it will coordinate with ORA to obtain a copy of implemented procedures to
   ensure that ORA’s accounting procedures adhere to federal grant
   accounting requirements. It will also coordinate with ORA to obtain a
   copy of implemented procedures to ensure that all grant-related financial
   activity is recorded in ORA’s accounting system.

   This recommendation can be closed when we receive a copy of the
   procedures implemented to ensure that ORA’s accounting procedures
   adhere to federal grant accounting requirements as well as ensure that all
   grant-related financial activity is recorded in ORA’s accounting system.




                                     - 22 -
3. Resolved. Both ORA and OJP concurred with our recommendation
   requiring that the grantee submit corrected Federal Financial Reports
   (FFR) based upon actual recorded and supported expenditures. OJP
   stated that it will coordinate with ORA to obtain a copy of implemented
   procedures to ensure that federal expenditures reported on future FFRs
   are based upon actual recorded and supported expenditures.

   This recommendation can be closed when we receive a copy of the
   procedures implemented to ensure that federal expenditures reported on
   future FFRs are based upon actual recorded and supported expenditures.

4. Resolved. Both ORA and OJP concurred with our recommendation
   requiring that the grantee remedy the $138,310 in unsupported
   questioned costs charged to the grant for salary and fringe benefits,
   supplies, and other costs that were based on pro-rated budget amounts.
   OJP stated that it will coordinate with ORA to remedy the $138,310 in
   unsupported questioned costs charged to award number
   2009-DN-BX-K207, related to salary and fringe benefits, supplies, and
   other costs that were based on pro-rated budgeted amounts.

   This recommendation can be closed when the $138,310 in unsupported
   questioned costs charged to the grant related to salary and fringe
   benefits, supplies, and other costs that were based on pro-rated
   budgeted amounts have been remedied.

5. Resolved. Both ORA and OJP concurred with our recommendation
   requiring that the grantee ensure that employees track all time on their
   timesheets, including by project and the hours worked. OJP stated that
   it will coordinate with ORA to obtain a copy of implemented procedures
   to ensure that employees’ timesheets reflect all time actually worked,
   both on individual federal grants and other projects.

   This recommendation can be closed when we receive a copy of the
   procedures implemented to ensure that employees’ timesheets reflect all
   time actually worked, both on individual federal grants and other
   projects.

6. Resolved. Both ORA and OJP concurred with our recommendation to
   ensure that the grantee submits progress reports in a timely manner.
   OJP stated that it will coordinate with ORA to obtain a copy of
   implemented procedures to ensure that future semi-annual progress
   reports are timely submitted to the U.S. Department of Justice.




                                   - 23 -
This recommendation can be closed when we receive a copy of the
procedures implemented to ensure that future semi-annual progress
reports are timely submitted to the U.S. Department of Justice.




                              - 24 -
